                                                                  Issue Date
                                                                         May 31, 2012
                                                                  Audit Report Number
                                                                         2012-AT-1011




TO:         Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU


            //signed//
FROM:       James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA
SUBJECT: Nationwide Mortgage & Associates, Inc., Fort Lauderdale, FL, Did Not Follow
          HUD Requirements in Approving FHA Loans and Implementing Its Quality
          Control Program


                                    HIGHLIGHTS

 What We Audited and Why

             We audited Nationwide Mortgage & Associates, Inc., a Federal Housing
             Administration (FHA)-approved non-supervised direct endorsement lender
             located in Fort Lauderdale, FL. We selected this lender because its default rate of
             4 percent was higher than the Miami U.S. Department of Housing and Urban
             Development (HUD) area average default rate of 2 percent. The audit objectives
             were to determine whether the lender followed HUD requirements when (1)
             originating and underwriting loans and (2) implementing its quality control
             program.

 What We Found

             Nationwide did not follow HUD requirements when it underwrote three of six
             loans reviewed for FHA insurance based on inaccurate and unsupported
             information. This condition occurred because the lender did not exercise due care
             when originating and underwriting these loans for FHA insurance. As a result,
             Nationwide increased the risk to the FHA insurance fund by $378,858.
           In addition, Nationwide had not implemented a quality control program that
           complied with HUD requirements. It did not conduct quality control reviews in
           compliance with requirements, and its written quality control plan did not contain
           the required provisions. These conditions occurred because Nationwide relied on
           the expertise of its contractors to draft its quality control plan and perform its
           quality control reviews. As a result, the effectiveness of Nationwide’s quality
           control program to guard against errors, omissions, and fraud and to protect HUD
           from unacceptable risk was diminished. Specifically, Nationwide increased the
           risk to the FHA insurance fund because it did not have assurance regarding the
           accuracy, validity, and completeness of its loan origination and underwriting
           operations.

What We Recommend

           We recommend that the Deputy Assistant Secretary for Single Family Housing
           require Nationwide to indemnify HUD for the three ineligible FHA loans with an
           estimated potential loss of $378,858. We also recommend that HUD review
           Nationwide within 9 months to determine whether its quality control program is
           being administered in accordance with HUD requirements. Finally, we recommend
           that Nationwide develop, implement, and enforce (1) written controls to ensure
           that loans are originated and underwritten in accordance with HUD requirements
           and (2) a quality control program that complies with HUD requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We discussed the findings with Nationwide during the audit. We provided the
           draft report to the lender on April 6, 2012, for its comments and discussed the
           report with Nationwide at the exit conference on May 9, 2012. Nationwide
           provided its written comments to our draft report on May 8, 2012. In addition,
           Nationwide provided the written evaluation of an independent underwriter. In its
           response, the lender and the independent underwriter generally disagreed with
           finding 1 and did not address finding 2.

           The complete text of Nationwide’s response, along with our evaluation of the
           response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
        Finding 1: Nationwide Did Not Follow HUD Requirements When Originating   5
        and Underwriting Loans
        Finding 2: Nationwide Did Not Follow HUD Requirements When               10
        Implementing Its Quality Control Program

Scope and Methodology                                                            14

Internal Controls                                                                16

Appendixes
   A.   Schedule of Funds To Be Put to Better Use                                17
   B.   Auditee Comments and OIG’s Evaluation                                    18
   C.   Schedule of Indemnification and Repayment Amounts for the Three Loans    27
   D.   Loan Details for the Three Purchase Loans                                28
   E.   Missing Quality Control Plan Elements                                    31




                                            3
                          BACKGROUND AND OBJECTIVES

Nationwide Mortgage & Associates, Inc., is a Federal Housing Administration (FHA)-approved
nonsupervised direct endorsement lender based in Fort Lauderdale, FL. Under the direct
endorsement program, the U.S. Department of Housing and Urban Development (HUD)
authorizes approved lenders to underwrite FHA loans without HUD’s prior review and approval.
A nonsupervised lender is an institution which has as its principal activity the lending or
investing of funds in real estate mortgages. It may submit applications for mortgage insurance
and may originate, purchase, hold, and service insured loans or sell mortgages.

Nationwide became an FHA-approved lender in August 2007 and does not have any active
branch offices. In April 2011, Nationwide came under new ownership, and from April to August
2011, the lender did not originate or underwrite any FHA loans. At the time of our review, most
of Nationwide’s employees involved in originating and underwriting the loans from our audit
period were no longer employed at Nationwide. Nationwide’s management indicated that it was
uncertain whether the company would continue its operations. In addition, as of January 2012, it
had not originated or underwritten any loans.

According to HUD’s Neighborhood Watch system,1 from the amortization dates of October 1,
2009, through September 30, 2011, Nationwide originated 298 loans in HUD’s Miami office
jurisdiction. As of September 30, 2011, 12 of the 298 loans (or 4 percent) with mortgage
amounts totaling more than $1.9 million were in default. Nationwide’s default rate exceeded the
Miami office jurisdiction’s default rate of 2 percent.

The audit objectives were to determine whether the lender followed HUD requirements when (1)
originating and underwriting loans and (2) implementing its quality control program.




1
  The HUD Neighborhood Watch is intended to aid HUD in monitoring lenders. The system is designed to highlight
exceptions, so that potential problems are readily identifiable. In particular, the system gives the ability to identify
and analyze patterns, by geographic area or originating lender, in loans that became 90 days delinquent during the
first 2 years.

                                                           4
                                      RESULTS OF AUDIT

Finding 1: Nationwide Did Not Follow HUD Requirements When
Originating and Underwriting Loans
Nationwide did not follow HUD requirements when originating and underwriting loans for FHA
insurance. It used inaccurate and unsupported information to qualify three borrowers for FHA
loans. This condition occurred because the lender did not exercise due care when originating and
underwriting these loans for FHA insurance. As a result, Nationwide increased the risk to the
FHA insurance fund by $378,8582.



    Loans Had Originating and
    Underwriting Deficiencies

                 Nationwide did not follow HUD requirements when originating and underwriting
                 three of six loans reviewed. Specifically, it used inaccurate employment
                 information, and it did not properly support borrowers’ gift funds, asset information,
                 and nontraditional credit.

                 FHA lenders must follow all applicable statutes, regulations, and HUD’s written
                 instructions, including program handbooks and mortgagee letters. Specifically,
                 lenders must follow HUD Handbook 4155.1, “Mortgage Credit Analysis for
                 Mortgage Insurance on One- to Four-Unit Mortgage Loans,” when using
                 automated underwriting systems or manually underwriting FHA loans. The
                 lender is responsible for eliciting a complete picture of the borrower’s financial
                 situation, source of funds for the transaction, and intended use of the property. Its
                 decision to approve the loan must be documented, supported, and verifiable.

                 The table below shows the summary of deficiencies identified for the three loans.
                                                          Table 1
                                          Inaccurate   Gift funds not                   Insufficient
                            FHA          employment      properly       Unsupported    verification of
                                                                                       nontraditional
                        case number         income      supported          Assets
                                                                                           credit
                        095-1320872           X                              X
                        095-1557431                          X                               X
                        095-1700690                          X
                           Total              1              2               1               1




2
  We classified $378,858 as funds to be put to better use. This is 66 percent of the $574,028 in unpaid principal
balances for the three loans as of February 29, 2012. The 66 percent is the estimated percentage of loss HUD would
incur when the FHA property is foreclosed upon and resold as supported by the HUD Single Family Acquired Asset
Management System’s case management profit and loss by acquisition as of December 2011. See appendix C for
more details.

                                                        5
             The following two sections discuss some examples of the originating and
             underwriting deficiencies.


Employment Income
Calculation Was Inaccurate

Inaccurate Employment Income
Calculation The lender did not accurately calculate the borrower’s monthly base income used
            to qualify the borrower for the loan. HUD Handbook 4155.1, paragraph 4.D.4.e,
            states that when qualifying a self-employed borrower for a mortgage loan, the
            lender must establish the borrower’s earnings trend from the previous 2 years
            using the borrower’s tax returns. If the borrower provides 3 years of tax returns,
            the lender may average the income over the 3 years.

             For FHA case number 095-1320872, the lender used $3,347 as the borrower’s
             monthly income to qualify the borrower for an FHA-insured mortgage totaling
             $142,373. The lender used this income amount to calculate the borrower’s
             qualifying debt-to-income ratios of 39.1 and 50.2 percent, respectively. The
             lender did not document how it computed the borrower’s monthly income. Based
             on the tax returns contained in the loan file, we determined that the borrower’s
             monthly income was $2,456 based on the average income for 2 years, which
             resulted in the borrower’s qualifying ratios of 53.3 and 68.4 percent, respectively.

             According to HUD Handbook 4155.1, paragraph 6.A.1.d, a loan must be rescored
             when verified income is more than 5 percent different from what the borrower
             reported on the loan application. Given that our recalculation resulted in a
             difference of 26.6 percent in the borrower’s monthly income, this loan would
             trigger the rescoring requirements and may not have qualified for the FHA
             mortgage.

                                                     Table 2
                                            Borrower’s monthly income
                                                                              Percentage
                                                   Recalculation                change
                          In loan file                   *                         **
                            $3,347                    $2,456                     (26.6)
                    *($4,971 net income from 2007 schedule C of tax return + $53,982 net income
                    from 2008 schedule C of tax return) / 24 months = $2,456 monthly income.

                    ** ($2,456 - $3,347)/($3,347) = (26.6 percent)


             The lender and HUD agreed with our method of computation. The lender
             indicated that since most of Nationwide’s employees involved in originating and
             underwriting the loans from our audit period were no longer employed at
             Nationwide, it would be difficult to determine how it computed the borrower’s
             monthly income.




                                                          6
          After receiving the draft audit report, the lender stated that the borrower's income
          was derived from the 2007 and 2008 schedule C tax forms. Since the borrower's
          self employment status began on August 2007, the lender computed borrower's
          income for 17 months, instead of 24 months (see appendix B for auditee
          comments).

          We accepted the lender’s explanation and considered this issue addressed.
          However, indemnification is still recommended for this loan due to insufficient
          documentation of source of funds used for closing (see appendix D for loan
          details).

Gift Funds Were Not Properly
Supported

          The lender did not properly document the transfer of gift funds. HUD Handbook
          4155.1, paragraph 5.B.5.b, states that if the gift funds are in the borrower’s
          account, the lender must obtain (1) a copy of the withdrawal document showing
          that the withdrawal is from the donor’s account and (2) the borrower’s deposit
          slip and bank statement showing the deposit. In addition, HUD Handbook
          4155.1, paragraph 5.B.4.d, states that regardless of when gift funds are made
          available to a borrower, the lender must be able to determine that the gift funds
          were not provided by an unacceptable source and were the donor’s own funds.

          For FHA case number 095-1700690, the borrower received gift funds of $6,000.
          The loan file included a cashier’s check and a copy of the borrower’s statement
          showing that the funds were received. However, none of the documents showed
          that the withdrawal came from the donor’s account. To ensure that the borrower
          did not receive funds from an unacceptable source, the lender should have
          obtained documentation showing the money coming from the donor’s account.
          As a result, without this gift, this loan would not have qualified for FHA
          insurance.

          For FHA case number 095-1557431, the loan file included two personal checks
          from the gift donor to the real estate agent and a copy of the donor’s statement
          showing the gift funds of $10,000 being withdrawn. However, only $9,000 was
          accounted for in the gift letter. HUD Handbook 4155.1, paragraph 5.B.5.a., states
          that the borrower must list the dollar amount of the gift on the loan application or
          in a gift letter for each cash gift received. In addition, HUD Handbook 4155.1
          5.B.4.c and 4155.1 5.B.4.e, states that the lender has the responsibility to ensure
          that funds given by the gift donor are not provided by a person or entity with an
          interest in the sale of the property, such as the seller or real estate agent. Without
          a gift letter to account for the additional $1,000 there was no assurance that the
          gift funds came from an acceptable source.

          HUD and the lender agreed that this loan file should have contained the missing
          information for the gift funds. The lender believed it was an oversight or that this


                                            7
             information was once in the file but the integrity of the documents may have been
             compromised due to the number of individuals who handled the loan.


 Nationwide Did Not Exercise
 Due Care in Approving Loans

             Nationwide did not exercise due care when originating and underwriting these
             loans for FHA insurance to ensure compliance with HUD requirements. As a
             direct endorsement lender, Nationwide was allowed to endorse a mortgage loan
             for FHA insurance without a detailed technical underwriting review by HUD. In
             approving loans for FHA insurance, the lender certified that the mortgage loan
             documents were personally reviewed and the mortgage was found to be eligible
             for FHA insurance.

             The lender agreed that the loan files should have contained the missing
             information. It believed that the documents were once in the files but the integrity
             of the file may have been compromised due to the number of individuals that
             handled the loan. In addition, the lender did not have adequate written policies
             and procedures to ensure that underwriting decisions complied with HUD
             requirements. Its written policies and procedures were missing specific
             procedures to address HUD requirements. For example, Nationwide’s written
             policies and procedures did not specify how to compute the monthly income for a
             self-employed borrower or how to properly support and document the transfer of
             gift funds.

Conclusion


             Nationwide did not follow HUD requirements when originating and underwriting
             three FHA loans. The deficiencies occurred because the lender did not exercise
             due care to ensure that the loans were originated and underwritten in accordance
             with HUD requirements. As a result, Nationwide unnecessarily placed the FHA
             insurance fund at risk by $378,858. As of February 29, 2012, one loan was in the
             foreclosure process, one was delinquent, and one was in special forbearance.

             Appendix C contains a schedule of the indemnification and repayment amounts
             required for the three loans. Appendix D contains the loan details for the three
             loans.




                                              8
Recommendations


          We recommend that the Deputy Assistant Secretary for Single Family Housing
          require Nationwide to

          1A.     Indemnify three loans with an estimated loss of $378,858. The estimated
                  loss was based on the loss severity rate of 66 percent of the total unpaid
                  principal balance of $574,028 as of February 29, 2012.

          1B.     Develop, implement, and enforce written controls to ensure that loans
                  comply with HUD requirements and underwriting decisions are properly
                  supported.




                                            9
Finding 2: Nationwide Did Not Follow HUD Requirements When
Implementing Its Quality Control Program
Nationwide did not follow HUD requirements when implementing its quality control program.
Specifically, it did not conduct quality control reviews in compliance with requirements, and its
written quality control plan did not contain the required provisions. These conditions occurred
because Nationwide relied on the expertise of its quality control contractors to draft its quality
control plan and perform its quality control reviews. As a result, it increased the risk of loss to
the FHA insurance fund because it did not have assurance regarding the accuracy, validity, and
completeness of its loan origination and underwriting operations.



As a condition of receiving and maintaining FHA approval, Nationwide must implement and
continuously have in place a quality control program. HUD Handbook 4060.1, REV-2, paragraph
7-2, states that lenders must design their quality control program to meet the basic goals of (1)
ensuring compliance with FHA’s and the lender’s origination and servicing requirements; (2)
protecting FHA and the lender from unacceptable risk; (3) guarding against errors, omissions, and
fraud; and (4) ensuring swift and appropriate corrective action. The lender’s quality control
program contained deficiencies in its quality control reviews and its written quality control plan.

 Quality Control Reviews Did
 Not Comply With HUD
 Requirements

               Nationwide outsourced its postclosing quality control reviews to three companies
               during our scope period of October 1, 2009, to September 30, 2011. For most of
               our review, we focused on the two companies that most recently performed the
               quality control reviews for Nationwide. We analyzed the reviews performed to
               determine whether Nationwide followed the five basic requirements when
               conducting its quality control reviews as required by HUD Handbook 4060.1,
               REV-2, paragraph 7-6(A) through (E). We analyzed quality control reports for 14
               loans and determined that Nationwide did not perform its quality control reviews
               according to HUD requirements. Our review found the following deficiencies:

               Loans Not Reviewed Within Time Limit
               HUD Handbook 4060.1, REV-2, paragraph 7-6(A), states that loans must be
               reviewed within 90 days from the end of the month in which the loan closed.
               Nationwide’s quality control reviews were not reviewed within the 90-day limit
               for 7 of the 14 loans reviewed. The elapsed time ranged from 152 to 576 days.
               The lender indicated that due to the change of ownership, some of the loans were
               not reviewed in a timely manner.

               Frequency of Review Requirement Not Met
               HUD Handbook 4060.1, REV-2, paragraph 7-6(B), states that for lenders closing
               more than 15 loans monthly, quality control reviews must be conducted at least

                                                 10
monthly and must address 1 month’s activity. Lenders closing 15 or fewer loans
monthly may perform quality control reviews quarterly. Based on the lender’s
loan activity from 2009 through 2011, Nationwide should have performed, at a
minimum, quarterly reviews. However, in 2009 Nationwide only performed two
reviews in June 2009 and December 2009. In 2010, Nationwide did not conduct
any reviews from January 2010 through April 2010. We were unable to contact
the former quality control contractor to obtain further clarification. In 2011,
Nationwide did not perform quality control reviews from February 2011 through
September 2011. Nationwide did not hire a quality control contractor from
February 2011 through April 2011, so no quality control reviews were done. In
October 2011, Nationwide’s new owners hired a quality control contractor to
perform the missing reviews.

Document Reverification Not Performed
HUD Handbook 4060.1, REV-2, paragraph 7-6(E)(2), states that documents
contained in the loan file, such as the borrower’s employment or other income,
deposits, gift letters, alternate credit sources, and other sources of funds, should be
checked for sufficiency and subjected to written reverification. If the written
reverification is not returned to the lender, a documented attempt must be made to
conduct a telephone reverification.

For the 14 loans reviewed, the borrower’s incomes, source of funds, and gift
funds were not properly reverified. The reverifications for all 14 loans were
either missing or not performed. In some instances, the quality control contractor
indicated that a reverification was not performed because a fee was required. In
other cases, the quality control contractor indicated that the verification was
performed, but it did not have evidence to support this assertion. In addition,
there was no documentation to show that it attempted telephone verifications.
                                         Table 3
                   Document reverification missing or not performed for
           FHA          Employment         Source of
       case number         income            funds         Gift funds     Other income
       095-2159096            X                X
       095-2175785                             X                               X
       095-2172562            X                X
       095-1979759            X                X
       095-1986113            X                X               X               X
       095-1655317                             X               X               X
       095-1700690            X                X               X
       095-1578221            X                X                               X
       095-1548225            X                X               X
       095-1557431            X                X               X
       095-1671463            X                X
       095-1689514            X                X
       095-1958368            X                X
       095-1949358                             X               X
           Total             11                14               6              4




                                     11
           Field Appraisal Not Performed
           HUD Handbook 4060.1, REV-2, paragraph 7-6(E)(3), states that lenders are
           expected to perform field reviews of 10 percent of the loans selected per year
           during the sampling process. Since the lender performed quality control reviews
           of 33 loans in 2010, at least 3 field appraisals would have been required in 2010.
           However, there were no field appraisals performed. In addition, the lender did not
           perform any field appraisal reviews in 2011.

           Occupancy Verification Not Performed
           HUD Handbook 4060.1, REV-2, paragraph 7-6(E)(4), states that in cases in
           which the occupancy of the subject property is suspect, lenders must attempt to
           determine whether the borrower is occupying the property. According to
           Nationwide’s quality control plan, public records are checked for verification of
           occupancy. Therefore, we checked public records and found that 4 of the 14
           loans reviewed included borrowers that owned multiple properties. However, the
           lender did not perform any occupancy reverifications. Given the multiple real
           properties owned by these borrowers, it would be reasonable to suspect
           occupancy issues; therefore, the lender should have performed occupancy
           verifications.

The Quality Control Plan Was
Incomplete

           Nationwide’s quality control plan did not contain HUD-required provisions.
           Specifically, its plan lacked six elements required by HUD. For example, HUD
           Handbook 4060.1, REV-2, paragraph 7-3(H), states that the lender must ensure
           that its contractors, agents, and loan correspondents are acceptable to FHA and
           operate in compliance with FHA requirements. Nationwide’s written quality
           control plan did not contain this element. In addition, paragraph 7-3(I) states that
           review findings must be reported to the lender’s senior management within 1
           month of completion of the initial report. However, this element was missing
           from the quality control plan. The lender indicated that it created its quality
           control plan with one of the quality control contractors and relied on its expertise
           to ensure that the plan complied with HUD requirements.

           Appendix E contains the details of the six missing elements.

The Lender Relied on Quality
Control Contractors

           Nationwide did not implement and continuously have in place a quality control
           program compliant with HUD requirements. The lender did not evaluate the
           work of the external quality control contractors to ensure that the quality control
           reviews followed HUD requirements. It assumed that its quality control reviews
           were performed in compliance with HUD requirements.


                                            12
             Nationwide stated that it relied on the expertise of the quality control companies it
             hired and did not know that the reviews were not being performed in compliance
             with HUD requirements. The lender reviewed the quality control review reports
             but focused only on the findings cited in those reports. The quality control review
             reports were not reviewed for compliance with HUD requirements. Although the
             lender stated that it relied on the companies it hired to perform the quality control
             reviews in accordance with HUD requirements, according to HUD Handbook
             4060.1, REV-2, paragraph 7-3(B)(2), the lender remains responsible for ensuring
             that the reviews comply with HUD requirements regardless of whether the
             reviews are performed by the lender or an external company.


Conclusion


             Nationwide did not follow HUD requirements when implementing its quality
             control program. The lender did not implement and continuously have in place a
             quality control program compliant with HUD requirements. This condition
             occurred because Nationwide relied on the expertise of the quality control
             companies and did not evaluate their work. As a result, the effectiveness of
             Nationwide’s quality control program to guard against errors, omissions, and
             fraud and to protect HUD from unacceptable risk was diminished. Specifically,
             Nationwide increased the risk to the FHA insurance fund because it did not have
             assurance regarding the accuracy, validity, and completeness of its loan
             origination and underwriting operations.

Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing

             2A.    Require Nationwide to develop, implement, and enforce a quality control
                    program that complies with HUD requirements. Specifically, the lender
                    needs to establish a written plan with the required provisions, ensure that
                    quality control reviews meet HUD requirements, and continually enforce
                    and maintain its quality control program.

             2B.    Review Nationwide’s quality control program within 9 months to determine
                    whether the required provisions have been included in its written plan and
                    quality control reviews are conducted in compliance with HUD
                    requirements.




                                              13
                         SCOPE AND METHODOLOGY

To accomplish the audit objectives, we

       Reviewed applicable HUD handbooks and mortgagee letters,
       Reviewed Nationwide’s written policies and procedures for originating and underwriting
       loans,
       Reviewed Nationwide’s loan files,
       Verified the accuracy of the information from the loan files with the borrowers and
       borrowers’ employers,
       Reviewed Nationwide’s written quality control plan,
       Analyzed Nationwide’s post closing quality control review reports, and
       Interviewed Nationwide’s employees and external quality control contractors.

We accessed HUD’s Neighborhood Watch system to obtain information about the lender and its
loan. Nationwide underwrote 298 loans within the jurisdiction of the Miami HUD office with
amortization dates between October 1, 2009, and September 30, 2011. As of September 30,
2011, 12 loans with mortgage amounts totaling more than $1.9 million were in default. We
selected four loans for review of originating and underwriting based on various risk factors
including loans (1) that defaulted within the first six payments, (2) with gift donors, and (3) with
mortgage amounts over $100,000. These four loans were also reviewed in our assessment of
quality control.

The seller of the property for one of the four loans reviewed was a former owner of Nationwide.
As a result, we decided to expand our review to two additional loans that were in default and also
had Nationwide’s former owner as the seller. The original mortgages of the six loans reviewed
totaled approximately $1.2 million, or 60 percent, of the $1.9 million in original mortgage
amounts that were in default. The results of our review apply only to the loans reviewed and
cannot be projected to the universe of loans.

Nationwide outsourced its post closing quality control reviews to three companies during our
scope period of October 1, 2009, through September 30, 2011. During this period, Nationwide
issued 17 quality control reports. We reviewed these 17 reports for compliance with HUD
requirements related to frequency and early payment defaults. Due to time constraints, we
selected 14 loans from the 17 quality control reports to evaluate for compliance with timeliness,
document reverification, desk appraisal review, and occupancy verification requirements, as well
as corrective action taken on material findings cited in the quality control review reports. These
14 loans were selected based on loans that (1) closed in the same month as the loans reviewed for
origination and underwriting, (2) were last reviewed by the two most recent quality control
companies, or (3) closed near the time of the transfer of ownership. In addition, we reviewed the
quality control reports issued in 2010 for compliance with field appraisal reviews and sample
size. The results of our review apply only to the quality control reports reviewed and cannot be
projected to the universe of reports.



                                                 14
We used data from HUD’s Neighborhood Watch system to identify the defaulted loans within
our scope period for the Fort Lauderdale branch office and to obtain background information on
selected loans. HUD’s system is designed to highlight exceptions so that potential problems are
readily identifiable. In particular, the system provides the ability to identify and analyze
patterns, by geographic area or originating lender, in loans that became delinquent within the
first 2 years of loan origination. Since we did not rely on the data from Neighborhood Watch as
the basis for our findings and conclusions, we did not assess the reliability of data from this
system.

During the course of the audit, we clarified HUD regulations and discussed potential issues with
our headquarters and the Atlanta Homeownership Center’s Quality Assurance Division. We also
discussed the finding with the lender.

We classified $378,858 as funds to be put to better use. This is 66 percent of the total unpaid
principal balances of $574,028 as of February 29, 2012, for the three loans. We used 66 percent
because it has been determined that upon the sale of the mortgaged properties, FHA’s average
loss was about 66 percent of the unpaid principal balance.

Our review generally covered the period October 1, 2009, through September 30, 2011, and was
extended as necessary. We conducted our fieldwork from November 2011 through March 2012
at Nationwide’s office in Fort Lauderdale, FL, and at various other locations in the Miami-Dade
and Broward County areas to conduct interviews with the borrowers, gift donors, and employers.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.
Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:
                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.
                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.
               We assessed the relevant controls identified above.
               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                      Nationwide did not follow HUD requirements when originating and
                      underwriting FHA loans (see finding 1).
                      Nationwide did not follow HUD requirements when implementing its
                      quality control program (see finding 2).




                                                 16
                                  APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                            Recommendation          Funds to be put to
                                    number               better use 1/
                                 1A                         $378,858

                                  Total                      $378,858

1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.

     Implementation of our recommendation to require Nationwide to indemnify HUD for the
     three loans will reduce the risk of loss to the FHA insurance fund. The amount above
     reflects HUD’s estimated loss of 66 percent of the loans’ unpaid principal balance of
     $574,028 as of February 29, 2012.




                                           17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         18
19
Comment 4




Comment 5


Comment 6




            20
Comment 7




            21
Comment 1




Comment 2




            22
Comment 4




Comment 5


Comment 6




            23
Comment 7




            24
                          OIG Evaluation of Auditee Comments

Comment 1 The lender and independent underwriter used the wrong FHA case number in its
          response. The correct number is 095-1320872.

Comment 2 The lender and independent underwriter stated that the borrower's income was
          derived from the 2007 and 2008 schedule C tax forms. Since the borrower's self
          employment status began on August 2007, the lender computed borrower's
          income for 17 months, instead of 24 months.

             The income calculation provided by the lender and underwriter resulted in income
             of $3,468 per month. We accepted the lender’s explanation and considered this
             issue addressed because it was $121 more than the monthly income amount used
             in qualifying the loan. During the audit, the lender did not provide this
             explanation. The lender indicated that since most of Nationwide’s employees
             involved in originating and underwriting the loans from our audit period were no
             longer employed at Nationwide, it would be difficult to determine how it
             computed the borrower’s monthly income. In addition, during the audit, the
             lender agreed with our income calculation.

             In addition to this issue, the lender did not provide an explanation for two recent
             large deposits to ensure that funds used to purchase the property came from an
             acceptable source. Therefore, we maintain our recommendation to indemnify this
             loan.

Comment 3 The lender indicated that even though inaccurate, the income calculation
          explanation was on the FHA Loan Underwriting and Transmittal Summary.

             The transmittal summary only stated that “self employment income was averaged
             over three years.” It did not identify the amounts and source document used in
             the calculation. In addition, the loan file did not contain any information
             explaining the income calculation. Therefore, the information in the transmittal
             letter and loan file did not adequately explain how income was computed.

Comment 4    The lender and independent underwriter used the wrong FHA case number in its
             response. The correct number is 095-1557431.

Comment 5    The lender and independent underwriter indicated that prior to Mortgagee Letter
             10-29, there was no requirement for the coborrower to have a minimum credit
             score or minimum trade lines if there was an Approved Eligible recommendation
             in the desktop underwriting. Since this loan was underwritten before this
             mortgage letter, the lender believed that it was not required to establish
             nontraditional credit history for the coborrower.

             Mortgagee Letter 10-29 describes the new minimum credit scores and loan to
             value ratio requirements for FHA-insured loans. It does not state that lenders are
             required to establish a credit history for borrowers with a nontraditional credit
             history or insufficient credit, or that borrowers must have one credit score as a

                                             25
            result of this mortgagee letter. According to HUD Handbook 4155.1 4.A.1.c.,
            when determining creditworthiness of borrowers, co borrowers, or cosigners, the
            underwriter needs to take in consideration income, assets, liabilities, and credit
            history. In addition, HUD Handbook 4155.1, paragraph 4.C.1.e., states that
            lenders must document that the providers of nontraditional credit exist and verify
            the credit information. If a method other than a nontraditional credit report is
            used to verify credit information or rental references, all references obtained from
            individuals should be backed up with the most recent 12 months of cancelled
            checks. The lender was required to obtain more than one credit reference.
            Therefore, the lender did not adequately establish the co borrower’s credit history
            through nontraditional means.

Comment 6   The lender and independent underwriter agreed that there should have been
            another gift letter for the additional $1,000 received and this was an unintentional
            oversight. The lender indicated that if the gift funds were the entire funds
            available for funds to close it may have been more apparent to the lender that
            there was a gift letter missing.

            The lender had the responsibility to obtain documentation regarding the additional
            gift amount even if the borrowers seemed to be able to provide funds to close
            from their own funds. According to HUD Handbook 4155.1 5.B.4.c and 4155.1
            5.B.4.e, the lender has the responsibility to ensure that funds given by the gift
            donor are not provided by a person or entity with an interest in the sale of the
            property, such as the seller or real estate agent. Without a gift letter there was no
            assurance that the gift funds came from an acceptable source.

Comment 7   The lender and independent underwriter agreed that the loan file was missing the
            document that showed that the withdrawal of the gift funds came from the donor's
            account. The lender believed that documentation was inadvertently misplaced.

            The gift was not properly documented in the loan file and there was no
            documentation showing that the gift funds came from the donor’s account.
            Therefore, this loan was not underwritten in accordance with HUD regulations.




                                             26
Appendix C

      SCHEDULE OF INDEMNIFICATION AND REPAYMENT
            AMOUNTS FOR THE THREE LOANS

                              Original          Unpaid
                              mortgage         mortgage        Indemnification         Status of loan as of
  No.     FHA case no.        amount           balance            amounta              February 29, 2012
      1   095-1320872        $ 142,373        $ 139,955           $ 92,370             Foreclosure process
      2   095-1557431        $ 230,743        $ 228,306           $ 150,682                Delinquent
      3   095-1700690        $ 207,209        $ 205,767           $ 135,806            Special forbearance
             Totals          $ 580,325        $ 574,028           $ 378,858

  a
    We classified $378,858 as funds to be put to better use. This is 66 percent of the $574,028 in unpaid
  principal balances for the three loans as of February 29, 2012. The 66 percent is the estimated percentage of
  loss HUD would incur when the FHA property is foreclosed upon and resold as supported by the HUD
  Single Family Acquired Asset Management System’s case management profit and loss by acquisition as of
  December 2011.




                                                       27
Appendix D

                            LOAN DETAILS FOR THE
                           THREE PURCHASE LOANS

 FHA case #: 095-1320872                         Mortgage amount: $142,373

 Date of loan closing: 09/23/2009                Unpaid principal balance: $139,955

 Loan purpose: Purchase - existing               Default status: First legal action to
                                                 commence foreclosure

Inaccurate Employment Income
The lender did not accurately calculate the borrower’s monthly base income. HUD Handbook
4155.1, paragraph 4.D.4.e, states that when qualifying a self-employed borrower for a mortgage
loan, the lender must establish the borrower’s earnings trend from the previous 2 years using the
borrower’s tax returns. If the borrower provides 3 years of tax returns, the lender may average
the income over the 3 years. For this loan file, the lender used $3,347 as the borrower’s monthly
income to qualify the borrower for an FHA-insured mortgage. The lender used this income
amount to calculate the borrower’s qualifying debt-to-income ratios of 39.1 and 50.2 percent,
respectively. The lender did not document how it computed the borrower’s monthly income.
We determined, based on the information on file that the borrower’s monthly income was $2,456
based on the average of income for 2 years, which resulted in the borrower’s qualifying ratios of
53.3 and 68.4 percent, respectively.

According to HUD Handbook 4155.1, paragraph 6.A.1.d, a loan must be rescored when verified
income is more than 5 percent different from what the borrower reported on the loan application.
Given that our recalculation resulted in a difference of 26.6 percent in borrower’s monthly
income, this loan would trigger the rescoring requirements and may not have qualified for an
FHA mortgage.

After receiving the draft audit report, the lender stated that the borrower's income was derived
from the 2007 and 2008 schedule C tax forms. Since the borrower's self employment status
began on August 2007, the lender computed borrower's income for 17 months, instead of 24
months (see appendix B for auditee comments).

We accepted the lender’s explanation and considered this issue addressed. However,
indemnification is still recommended for this loan due to insufficient documentation of source of
funds used for closing.

Unsupported Source of Funds
HUD Handbook 4155.1, paragraph 5.B.2.b., states that the lender must obtain an explanation and
documentation for recent large deposits in excess of 2 percent of the property sales price. There
were two large deposits into the borrower’s bank account totaling $3,298 and $6,790,
respectively. These deposits were made on June 18 and July 22, 2009. The lender did not
provide an explanation for these deposits to show that the funds were from an acceptable source.

                                                28
 FHA case #: 095-1557431                           Mortgage amount: $230,743

 Date of loan closing: 01/29/2010                  Unpaid principal balance: $228,306

 Loan purpose: Purchase - existing                 Default status: Delinquent


Unsupported Credit History
The lender did not exercise due care in verifying and analyzing the borrower’s credit history.
HUD Handbook 4155.1, paragraph 4.C.1.e., states that lenders must document that the providers
of nontraditional credit exist and verify the credit information. To verify credit information,
lenders must use a published address or telephone number for the credit provider and not rely
solely on information provided by the applicant. Credit references may also be developed via
independent verification directly to the creditor. If a method other than a nontraditional credit
report is used to verify credit information or rental references, all references obtained from
individuals should be backed up with the most recent 12 months of cancelled checks.

The lender established the coborrower’s credit history through nontraditional means because the
coborrower lacked established traditional credit. The lender established credit using two credit
references from a cable television service and utility bill. The lender obtained a credit reference
for the cable service via an independent verification company, which established that payments
were made beyond 12 months. Regarding the utility service, the lender did not obtain an
independent verification or retain 12 months of cancelled checks. In addition, HUD agreed that
one or two credit references were not enough to establish that the coborrower had a positive
credit history.

Unsupported Gift Funds
The lender did not properly document the borrower’s gift funds. HUD Handbook 4155.1,
paragraph 5.B.5.a., states that the borrower must list the dollar amount of the gift on the loan
application or in a gift letter for each cash gift received. The loan file included two personal
checks from the gift donor to the real estate agent and a copy of the donor’s statement showing
the gift funds of $10,000 being withdrawn. However, only $9,000 was accounted for in the gift
letter. The lender and HUD agreed that this information should have been documented.




                                                29
 FHA case #: 095-1700690                           Mortgage amount: $207,209

 Date of loan closing: 05/28/2010                  Unpaid principal balance: $205,767

 Loan purpose: Purchase - existing                 Default status: Special forbearance


Unsupported Gift Funds
The lender did not properly document gift funds. HUD Handbook 4155.1, paragraph 5.B.5.b,
states that if the gift funds are in the borrower’s account, the lender must obtain (1) a copy of the
withdrawal document showing that the withdrawal is from the donor’s account and (2) the
borrower’s deposit slip and bank statement showing the deposit. In addition, HUD Handbook
4155.1, paragraph 5.B.4.d, states that regardless of when gift funds are made available to a
borrower, the lender must be able to determine that the gift funds were not provided by an
unacceptable source and were the donor’s own funds. The borrower received gift funds of
$6,000. The loan file included a cashier’s check and a copy of the borrower’s statement showing
that the funds were received. However, none of the documents showed that the withdrawal came
from the donor’s account. To ensure that the borrower did not receive funds from an
unacceptable source, the lender should have obtained documentation showing the money coming
from the donor’s account.




                                                 30
Appendix E

                   MISSING QUALITY CONTROL PLAN
                             ELEMENTS
Nationwide’s quality control plan did not contain the following six required elements according
to HUD Handbook 4060.1, REV-2:

              The lender must expand the scope of the quality control review when fraud or
              patterns of deficiencies are uncovered and scope means both an increased number
              of files and more indepth review.

              The lender must ensure that its contractors, agents, and loan correspondents are
              acceptable to FHA and operate in compliance with FHA requirements.

              Review findings must be reported to the lender’s senior management within 1
              month of completion of the initial report. The final report or an addendum must
              identify the timetable for the completion of the actions being taken and any
              planned follow-up activities.

              The lender closing more than 15 loans monthly must conduct quarterly reviews at
              least monthly and must address 1 month's activity. The lender closing 15 or fewer
              loans monthly may perform quality control reviews on a quarterly basis.

              Loans must be reviewed from all branch offices and all sources including
              authorized agents and loan correspondents, and lenders must review the work of
              each of the loan processors, loan officers, and underwriters based on the sample
              selected. In addition, lenders must review the work of roster appraisers, real
              estate companies, and builders with whom they do a significant amount of
              business.

              Each loan selected for a quality control review must be reviewed to determine
              whether (1) the seller was the owner of record or was exempt from the owner of
              record requirement in accordance with HUD regulations and (2) the loan was
              closed and funds disbursed in accordance with the lender’s underwriting and
              subsequent closing instructions.




                                               31
